Pension Benefit Guaranty Corporation
      Office of Inspector General

           Audit Report


          Fiscal Year 1999
     Financial Statement Audit-
        Management Letter




            August 21, 2000
                                    2000-8/23138-3
                Audit of PBGC’s Fiscal Year 1999 Financial Statements
                                 Management Letter
                                   2000-8/23138-3


                               TABLE OF CONTENTS




Abbreviations                                                             ii

Executive Summary                                                         iii

Introduction                                                              1

Audit Objectives                                                          1

Scope and Methodology                                                     2

Audit Results                                                             2

Findings and Recommendations                                              3

Current Year Findings and Recommendations                                 5

Status of Prior Year Findings and Recommendations                         9




AGENCY COMMENTS                                                         TAB A




                                         -i-
                                                                   2000-8/23138-3
        Audit of PBGC’s Fiscal Year 1999 Financial Statements
                         Management Letter
                           2000-8/23138-3



                          ABBREVIATIONS



AICPA   American Institute of Certified Public Accountants
ERISA   Employee Retirement Income Security Act of 1974
FAM     Financial Audit Manual
FARS    Financial Accounting and Reporting System
FBA     Field Benefit Administrator
FMFIA   Federal Managers’ Financial Integrity Act of 1982
FOD     Financial Operations Department
FY      Fiscal Year
GAAP    Generally Accepted Accounting Principles
GAO     General Accounting Office
IOD     Insurance Operations Department
IPS     Image Processing System
IPVFB   Integrated Present Value of Future Benefits
IRMD    Information Resources Management Department
LAN     Local Area Network
MWG     Multiemployer Working Group
OED     Office of the Executive Director
OIG     Office of Inspector General
PAS     Premium Accounting System
PLUS    Pension and Lump Sum System
PBGC    Pension Benefit Guaranty Corporation
PCR     Premium Compliance Reviews
PRISM   Participant Records Information Systems Management
PVFB    Present Value of Future Benefits
SDLC    Systems Development Life Cycle
SSB     State Street Bank and Trust Company




                                -ii-
                                                        2000-8/23138-3
                        Fiscal Year 1999 Financial Statement Audit
                                    Management Letter
                                      2000-8/23138-3

                                   EXECUTIVE SUMMARY

       The Office of Inspector General (OIG) of the Pension Benefit Guaranty Corporation
(PBGC or the Corporation) engaged PricewaterhouseCoopers LLP (PricewaterhouseCoopers) to
conduct an audit of the financial statements of the Single-Employer and Multiemployer
Program Funds administered by PBGC, as of and for the years ended September 30, 1999 and
1998. As presented in OIG Audit Report 2000-7/23138-2, PricewaterhouseCoopers issued an
unqualified opinion on the statements of financial condition and the related statements of
operations and changes in net position and statements of cash flows.

        We have also examined management’s assertion that PBGC’s controls in effect as of
September 30, 1999, provided reasonable assurance that assets were safeguarded from
material loss and transactions were executed in accordance with management’s authority and
with significant provisions of selected laws and regulations, and furthermore, PBGC controls
provided reasonable assurance that transactions were properly recorded, processed, and
summarized to permit the preparation of the financial statements in accordance with generally
accepted accounting principles and to maintain accountability for assets among funds. We
found management’s assertion to be fairly stated, in all material respects. However, we noted
certain matters involving internal control and its operation that we consider to be reportable
conditions under standards established by the American Institute of Certified Public
Accountants (AICPA). None of the reportable conditions was believed by us to be material
weaknesses as defined by AICPA. The reportable conditions we noted were: PBGC needs to
integrate its financial management systems and improve its systems development life cycle
methodology; PBGC needs to finalize and test its plan for maintaining continuity of operations;
PBGC needs to implement and improve controls surrounding the Participant Records
Information Systems Management application; and the need for PBGC to further strengthen
controls to protect its information.

        Our report on PBGC’s compliance with laws and regulations stated that the results of
our tests disclosed no instances of non-compliance that are required to be reported under
Government Auditing Standards, or the methodology set forth by the U.S. General Accounting
Office’s (GAO) Financial Audit Manual (FAM).

        This management report discusses findings and recommendations for improvements in
the Corporation’s internal control that were identified during our audit of the fiscal year 1999
financial statements. It contains four (4) findings, which resulted in six (6) recommendations
that, although not considered material weaknesses or reportable conditions, we believe warrant
the attention of PBGC management.




                                              -iii-
                                                                               2000-8/23138-3
                        Fiscal Year 1999 Financial Statement Audit
                                    Management Letter
                                      2000-8/23138-3



        The current year findings are reported under two categories: compliance with PBGC’s
policies and procedures needs strengthening, and lack of formal policies and procedures.
Finally, in the section entitled “Prior-Year Findings and Recommendations," we have
summarized the status of prior year audit recommendations included in OIG Audit Report
Numbers 99-7/23132-2 and 99-8/23132-3, as of September 30, 1999. Recommendations that
were deemed “completed” in prior years have not been carried forward.



                             Summary of Current Year Findings

                                     Finding                                          Page
                                                                                     Number

 1. DUEC and Other Accounts Receivable reconciliations were not performed               5
    properly.



 2. Procurement records were not reconciled to FARS and were not adequately             6
    supported.


 3. Amounts identified as due to PBGC were not posted to the Premium                    7
    Accounting System (PAS).



 4. PBGC needs policies and procedures related to the Multiemployer Working             8
    Group Chairman’s methodology of identifying the plans to review from the
    multiemployer universe.




MANAGEMENT RESPONSE AND OIG EVALUATION

A draft Report was provided to the agency for comment. In addition, we met with PBGC
officials to discuss the Report’s findings. We have reviewed PBGC’s comments to this Report.
PBGC’s response, which can be found at TAB A, generally agreed with the Report’s findings.




                                             -iv-
                                                                               2000-8/23138-3
                       Fiscal Year 1999 Financial Statement Audit
                                   Management Letter
                                    2000-8/23138-3
Introduction

        As a government corporation created by Title IV of the Employee Retirement Income
Security Act of 1974 (ERISA), the Pension Benefit Guaranty Corporation (PBGC or the
Corporation) protects the pensions of more than 43 million Americans in approximately
40,000 private defined benefit pension plans, including about 1,800 multiemployer plans.
PBGC’s mission is to operate as a service-oriented, professionally managed agency that
protects participants’ benefits and supports a healthy retirement plan system by:
(1) encouraging the continuation and maintenance of private pension plans; (2) providing
timely payments of benefits in the case of terminated pension plans; and (3) making the
maximum use of resources and maintaining premiums and operating costs at the lowest
levels consistent with statutory responsibilities. PBGC finances its operations through
premiums collected from covered plans, assets assumed from terminated plans, collection of
employer liability payments due under ERISA, as amended, and investment income. In
addition, PBGC may borrow up to $100 million from the United States Department of the
Treasury to finance its operations. To date, this borrowing authority has not been exercised.

Audit Objectives

The objectives of our audit were to determine whether:

   The financial statements present fairly, in all material respects, the financial position of
   the Single-Employer and Multiemployer Program Funds administered by PBGC as of
   September 30, 1999, and September 30, 1998, and the results of their operations and
   cash flows for the years then ended, in conformity with generally accepted accounting
   principles (GAAP).

   Management’s assertion that PBGC’s controls in effect as of September 30, 1999,
   provided reasonable assurance that assets were safeguarded from material loss and
   transactions were executed in accordance with management’s authority and with
   significant provisions of selected laws and regulations, and furthermore, that PBGC
   controls provide reasonable assurance that transactions were properly recorded,
   processed, and summarized to permit the preparation of the financial statements in
   accordance with generally accepted accounting principles and to maintain accountability
   for assets among funds is fairly stated, in all material respects, based upon criteria
   contained in the Federal Managers’ Financial Integrity Act of 1982 (FMFIA). This
   assertion is included in the Management’s Discussion and Analysis of Financial Condition
   and Results of Operations section of PBGC’s Fiscal Year (FY) 1999 Annual Report to the
   Congress.

   PBGC is in compliance with significant provisions of applicable laws and regulations.

                                               1
                                                                        2000-8/23138-3
Scope and Methodology

      The Office of Inspector General (OIG) of PBGC engaged PricewaterhouseCoopers to
conduct an audit of the financial statements of the Single-Employer and Multiemployer
Program Funds administered by PBGC as of and for the years ended September 30, 1999,
and September 30, 1998.

        Our audit was performed in accordance with standards established by the American
Institute of Certified Public Accountants (AICPA), Government Auditing Standards, and
pursuant to the methodology set forth by the United States General Accounting Office’s
(GAO) Financial Audit Manual (FAM). Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the financial statements are free of
material misstatement.

        We performed tests of the accounting records and such other auditing procedures, as
we considered necessary in the circumstances. This involved performing tests at PBGC,
State Street Bank (SSB), two investment manager sites, two Premium Compliance Review
sites, and two Field Benefit Administrator (FBA) sites. We did not perform tests related to
standard terminations or other areas since such events did not have a direct and material
effect on the financial statements.

Audit Results

       As a result of our FY 1999 audit, we issued the following reports:

       (a) an unqualified opinion on PBGC’s statements of financial condition, and the
           related statements of operations and changes in net position and statements of
           cash flows, as of and for the years ended September 30, 1999, and September 30,
           1998 (OIG report number 2000-7/23138-2);

       (b) a report on PBGC’s compliance with laws and regulations that noted no instances
           of non-compliance with the provisions tested (OIG report number 2000-7/23138-
           2); and

       (c) a report on internal control that identified four reportable conditions, three of
           which are recurring (OIG report number 2000-7/23138-2). These reportable
           conditions were not deemed to be material weaknesses as defined by standards
           established by AICPA.

        Our FY 1999 report on internal control disclosed three recurring reportable
conditions from FY 1998. The first reportable condition related to the lack of integration of
the Corporation’s financial management systems, including the need for an adequate
Systems Development Life Cycle (SDLC) methodology and the need for adequate systems

                                              2
                                                                      2000-8/23138-3
development monitoring and oversight. This reportable condition was also reported in FYs
1997 and 1996. During FY 1999, PBGC made some progress in addressing the issue related
to the lack of a formal SDLC. However, additional work is required to ensure that PBGC’s
financial management systems are integrated, the formal SDLC is fully implemented, and
specific criteria allowing the Corporation to effectively monitor systems outsourcing are
identified and followed.

        The second reportable condition that was carried forward from FY 1998 related to the
need to implement and test an adequate plan for maintaining continuity of operations.
During FY 1999, PBGC made notable progress by improving its disaster recovery and
business continuity plans. However, our FY 1999 audit still identified a number of
deficiencies that would impair PBGC’s ability to respond effectively to a disruption in
business operations.

        The last carry-forward reportable condition related to the need to implement and
improve controls surrounding the Participant Records Information Systems Management
(PRISM). While PBGC made substantial progress in FY 1999 by designing and implementing
control procedures related to PRISM operations, our audit identified several areas where
controls could be further strengthened.

      During FY 1999, we identified a new reportable condition related to the need for
PBGC to further strengthen controls to protect its information.

       In addition to the reportable conditions specified above, we identified a number of
internal control weaknesses that, although not considered material weaknesses or reportable
conditions, we believe warrant the attention of management. This management report
summarizes such findings and provides recommendations for improvement in the
Corporation’s internal control.

Findings and Recommendations

        This report contains four (4) findings from our FY 1999 testing which resulted in six (6)
recommendations that PBGC should implement to strengthen the Corporation’s internal
control. Additionally, in the section entitled "Prior-Year Findings and Recommendations," we
have summarized the status, as of September 30, 1999, of prior-year audit recommendations
included in OIG Audit Report Numbers 99-7/23132-2 and 99-8/23132-3. The remainder of
this report is comprised of the following:

   A table listing our current year recommendations (page 4).
   A discussion of each current year finding and corresponding recommendation(s)
   (pages 5 - 8).
   A table listing each of the outstanding prior year findings and their status as of
   September 30, 1999 (pages 9 - 13).


                                               3
                                                                       2000-8/23138-3
                          Summary of Current Year Recommendations

                                     Recommendation


1. Document and enforce policies and procedures regarding proper reconciliations between       6
   the DUEC and Employer Liability Aged Receivables Report and the general ledger, and
   between the Other Receivables Report and the general ledger. (FOD-278)



2. Assign responsibility to the General Accounting Branch to reconcile monthly the PD          7
   records and FARS records, and document supervisory review of the monthly
   reconciliations. (FOD-279)



3. Maintain documentation to adequately support each of the budgetary accounting               7
   transactions on PBGC’s Obligation Balance Report by Cost Center. (FOD-280)



4. Record the amounts identified by the Premium Compliance Reviews as due to PBGC in           7
   conformity with GAAP and in a timely manner. (FOD-281)



5. Document policies and procedures related to the Multiemployer Working Group                 8
   Chairman's methodology for selecting plans from the multiemployer universe that should
   undergo the screening ratio process. (IOD-189)



6. Document polices and procedures related to the rationale of screening ratio selection and   8
   the use of such ratios as a tool of identifying problematic plans. (IOD-190)




                                               4
                                                                       2000-8/23138-3
Current Year Findings and Recommendations

1.     COMPLIANCE WITH PBGC’s POLICIES AND
       PROCEDURES NEEDS STRENGTHENING

        An entity develops and implements policies and procedures to help provide order,
ensure consistency in processing among personnel, and provide guidance to new or
reassigned personnel. Management also develops policies to help ensure compliance with
applicable laws and regulations, to guide personnel in the implementation of internal
controls, and to help prevent fraud, waste, or abuse from occurring and not being detected
timely. If policies and procedures are not followed, inconsistent or ineffective processing of
accounting transactions may occur, resulting in possible errors or irregularities. We
identified the following instances where compliance with PBGC’s policies and procedures
needed further strengthening:


1.1    DUEC and Other Accounts Receivable
       reconciliations were not performed properly.

        During our FY 1999 testing, we noted differences between account balances in
certain financial reports and the general ledger, and that those differences were not properly
reconciled. These discrepancies occurred between certain related balances reported in the
general ledger as of September 30, 1999, and the (1) Due and Unpaid Employer
Contributions (DUEC) and Employer Liability Aged Receivables Report (Aged Receivables
Report) and (2) Other Receivables Report.

       During our testing of the Aged Receivables Report, we noted discrepancies between
the account balances in this Report and the corresponding accounts comprising the
Sponsors of Terminated Plans balance that were not reconciled. The discrepancies resulted
from PBGC’s use of different criteria to calculate the Aged Receivables Report balances from
that used to calculate the general ledger balances. Specifically:

       1)      The DUEC balance in the Aged Receivables Report was calculated using a
               different allowance percentage than the percentage used for the calculation of
               the general ledger balance.

       2)      The Employer Liability receivable balance in the Aged Receivables Report was
               calculated using the principal plus interest instead of the principal only as
               used in the general ledger.

         During our testing of the Other Receivables Report, we noted that the balance in this
Report did not agree with the balance of the Other Receivables account in the general ledger.
This discrepancy resulted because the balance in the Other Receivables Report did not
reflect information about two plans that had been properly included in the September 30,
1999 general ledger balance. This discrepancy was not reconciled.

                                               5
                                                                        2000-8/23138-3
       In addition, policies and procedures for reconciliations between subsidiary reports
and the general ledger were not properly documented by PBGC.

        PBGC’s policies and procedures require that reported balances have appropriate
support and documentation. Improper or no reconciliation of the Aged Receivables Report
and the Other Receivables Report balances with the general ledger could cause financial
statement balances to be misstated. Finally, undocumented policies and procedures can
lead to inconsistent and untimely application of necessary processes.

                                     Recommendation

We recommend the following corrective action:

       Document and enforce policies and procedures regarding proper reconciliations between
       the DUEC and Employer Liability Aged Receivables Report and the general ledger, and
       between the Other Receivables Report and the general ledger. (FOD- 278)


1.2    Procurement records were not reconciled to
       FARS and were not adequately supported.

        During our FY 1999 testing, we noted that GAB was not performing the reconciliation
between the Procurement Department’s (PD) records of purchase orders and requisitions and
FARS for all 12 months in FY 1999. GAB ceased to perform this reconciliation when the
individual who had been performing the reconciliation was reassigned. GAB did not assign
the reconciliation responsibilities to another individual. Currently, GAB policies and
procedures require a reconciliation of the PD records with FARS on a monthly basis. Unless
this reconciliation is performed, obligations may be created by the PD which are not properly
posted to FARS. Also, if the reconciliation is not prepared properly, an obligation that was
not entered to FARS might not be detected. Thus, there is a risk of misstatement of
obligations.

        Additionally, during our FY 1999 testing, we identified instances when GAB did not
maintain adequate documentation to support each of the budgetary accounting transactions
on PBGC’s Obligation Balance Report by Cost Center. The report identifies limitation and
non-limitation unliquidated balances at year-end. If proper supporting documentation is not
maintained for the budgetary accounting transaction, errors in accounting records might not
be detected or the validity of some transactions might not be independently verified.
Consequently, there is a risk of misstatement of obligations, and expeditures could
potentially exceed obligated amounts without being detected in a timely manner. This
condition was identified in our prior year audits. Subsequently, PBGC developed policies
and procedures requiring maintenance of supporting documentation for budgetary
accounting transactions; however, these policies and procedures need to be fully
implemented.


                                              6
                                                                      2000-8/23138-3
                                     Recommendation

We recommend the following corrective actions:

       Assign responsibility to the General Accounting Branch to reconcile monthly the PD
       records and FARS records, and document supervisory review of the monthly
       reconciliations. (FOD-279)

       Maintain documentation to adequately support each of the budgetary accounting
       transactions on PBGC’s Obligation Balance Report by Cost Center. (FOD-280)


1.3    Amounts identified as due to PBGC were not
       posted to the Premium Accounting System
       (PAS).

        During fiscal year 1999, PBGC’s Premium Audit and Investigation Branch (PAIB) was
responsible for performance of Premium Compliance Reviews (PCRs), which may result in an
accrual of premiums receivable, followed by settlements and collections. In prior years, we
identified a lack of accounting procedures for recording the results of PCRs into PAS at the
point the debt was determined. During fiscal year 1999, PBGC developed formal procedures
for entering premiums receivables generated by the PCR findings. However, during our
fiscal year 1999 audit, we encountered several instances in which amounts identified as due
to PBGC during PCRs were not posted to PAS. If the receivable amounts are not posted to
PAS, there is a risk that the collection of these amounts is not properly tracked, thus
reducing the effectiveness of PCRs. Furthermore, misstatements in the PBGC’s financial
statements may also occur.

                                     Recommendation

We recommend the following corrective action:

       Record the amounts identified by the Premium Compliance Reviews as due to PBGC in
       conformity with GAAP and in a timely manner. (FOD-281)


2.     LACK OF FORMAL POLICIES AND
       PROCEDURES

        Financial statement reliability is dependent on maintaining adequate and effectively
functioning internal controls. An internal control is a set of policies and procedures
established and maintained by management designed to meet its internal control objectives.
The objectives of internal control generally include, but are not limited to: (a) adherence to
management’s policies and procedures, (b) safeguarding of assets, and (c) accuracy and
completeness of the accounting records. Adequate internal control can reduce the risk that
financial statements contain material misstatements. During our FY 1999 testing, we
                                              7
                                                                       2000-8/23138-3
identified an instance in which PBGC needed to develop and implement formal policies and
procedures.



2.1    PBGC needs policies and procedures related to
       the Multiemployer Working Group Chairman’s
       methodology of identifying the plans to review
       from the multiemployer universe.

        During our FY 1999 testing, we noted that the Multiemployer Working Group (MWG)
did not have policies and procedures related to the MWG Chairman's methodology for
identifying multiemployer plans, from the multiemployer universe, that require further
review by the MWG. The Chairman’s methodology constitutes the first two stages of the
Multiemployer Evaluation process. The first stage is the universal review, in which the
Chairman identifies plans that should undergo the screening ratio process. The second
stage is the screening ratio process, in which the Chairman applies screening ratios to each
plan identified in the first stage. Types of screening ratios applied to each plan may vary
from year to year. Plans identified during the screening ratio process are then sent to the
MWG for the third and final stage of the multiemployer classification process. In this stage,
plans are classified according to their likelihood of termination as probable, reasonably
possible or remote. Currently, the MWG procedures include adequate documentation on the
third stage, the MWG's review process. However, there are no documented policies and
procedures on the MWG Chairman's methodology for identifying plans that should undergo
the screening ratio process or for the rationale of applying certain types of screening ratios
and the use of such ratios as a tool of identifying problematic plans.

       Without properly documented policies and procedures, there is a risk that the
multiemployer classification process will not adequately identify all plans in the
multiemployer universe that require further analysis by the MWG. This, in turn, could lead
to misstatements of multiemployer liability on the financial statements and in the note
disclosures. Furthermore, enhanced documentation is needed to ensure the continuity of
the responsibilities of the MWG Chairman, should there be a change in personnel.

                                         Recommendation

We recommend the following corrective actions:

       Document policies and procedures related to the Multiemployer Working Group
       Chairman's methodology for selecting plans from the multiemployer universe that
       should undergo the screening ratio process. (IOD-189)

       Document policies and procedures related to the rationale of screening ratio selection
       and the use of such ratios as a tool of identifying problematic plans. (IOD-190)




                                               8
                                                                       2000-8/23138-3
Status of Prior Year Findings and Recommendations

       While we recognize that the Corporation has put forth considerable efforts to
implement policies and procedures to mitigate or otherwise resolve the findings reported in
our FY 1993 to FY 1996 and FY 1998 audit reports (OIG Audit Report Numbers 94-1/23069-
2, 94-7/23079-2, 95-7/23083-2, 96-9/23093-3, 97-23/23110-3 and 99-8/23132-3), as of
September 30, 1999, a number of findings and related recommendations had yet to be
completed and implemented.

       The following schedule identifies the status of the 34 recommendations that were
outstanding as of September 30, 1998. Follow-up of prior year findings and
recommendations was performed, in part, to determine the nature, timing, and extent of the
current year's audit procedures. The status was determined through review of
management's responses to the OIG's semi-annual report of audit recommendations,
additional audit testing performed, and discussions held with the appropriate management
personnel. The status of these prior-year findings is as of September 30, 1999, and may not
necessarily represent the status as of the date of the issuance of this report. The “status”
category of each prior-year finding corresponds to the categories as used by the OIG in the
Semiannual Report of Follow-up of Audit Recommendations, defined as follows:

•=   Completed -- The OIG concurs with PBGC management that the recommendation had
     been implemented. Therefore, this recommendation will no longer be tracked by the
     OIG and reported in future Semiannual Reports on Follow-up Audit Recommendations.

•=   Initiated, Not Completed -- Steps have been taken by PBGC management to implement
     the recommendation. However, further actions are still needed by PBGC to implement
     the recommendation. Therefore, this status of the recommendation will continue to be
     tracked by the OIG.

•=   Not Initiated -- No steps have been taken by PBGC management to implement the
     recommendation. Therefore, this status of the recommendation will continue to be
     tracked by the OIG.



        OIG
      Control       Status of Prior Year Findings and Recommendations As of           Status as of
      Number                           September 30, 1999                         September 30, 1999


                                            Fiscal Year 1998

      FOD-274      Enhance financial reporting controls surrounding PAS to       Initiated, Not Completed
                   improve the system’s ability to accurately track premiums
                   receivable on a plan basis.




                                                   9
                                                                               2000-8/23138-3
   OIG
 Control      Status of Prior Year Findings and Recommendations As of                    Status as of
 Number                             September 30, 1999                               September 30, 1999


 FOD-275      Analyze the existing year-end processes surrounding PAS and           Initiated, Not Completed
              identify improvements that will reduce the necessity of
              manual adjustments, validity testing, and reclassifications at
              year-end.
 IOD-169      Enforce existing IOD policies and procedures requiring that           Initiated, Not Completed
              participants’ files contain complete information critical for the
              benefit payments and the PVFB liability calculation.
Disagreed-1   Modify existing IOD procedures to require retention of source         Initiated, Not Completed
              documentation generated as a result of the participant data
              audits and used to calculate benefit payments and value the
              PVFB liability.
 IOD-170      Develop, implement, and enforce consistent procedures for             Initiated, Not Completed
              reinstating participants into pay status.

 IOD-171      Enforce policies and procedures related to the maintenance of         Initiated, Not Completed
              plan file documentation at the FBAs and headquarters.

 FOD-276      Require all premium compliance reviews to be performed,               Initiated, Not Completed
              documented, and approved in accordance with PBGC’s
              Premium Compliance Review Procedures Manual.
 FOD-277      Develop and implement formal procedures for closing                   Initiated, Not Completed
              premium compliance reviews in progress prior to completion.
 FOD-227      Develop and implement accounting procedures for recording                   Completed
              the results of PCR into PAS at the point the debt is
              determined.
IRMD-108      PBGC needs to enhance the change control process used in              Initiated, Not Completed
              maintaining and supporting its application systems and
              include it as part of the overall System Development Life Cycle
              currently being developed.
IRMD-109      PBGC needs to develop and formalize criteria for assessing                 Not Initiated
              business and information technology risks that can be used
              internally and for contractors performing independent reviews.
 IOD-172      Enforce policies and procedures that require participants’            Initiated, Not Completed
              records in PRISM contain information that is adequately
              supported in IPS.
 IOD-173      Enforce existing policies and procedures related to the               Initiated, Not Completed
              information that should be captured by FBAs in the
              participants’ records in PRISM.
 IOD-174      Maintain an adequate audit trail of decisions affecting the                Not Initiated
              integrity of participants’ data.



                                                 10
                                                                                  2000-8/23138-3
  OIG
Control    Status of Prior Year Findings and Recommendations As of                  Status as of
Number                          September 30, 1999                              September 30, 1999


IOD-175    Delete invalid duplicate participant records in PRISM and           Initiated, Not Completed
           implement necessary controls to prevent the creation of
           duplicate records in future processing.
IOD-176    Apply transactions to participants’ records in PRISM properly       Initiated, Not Completed
           and timely.
IOD-177    Properly authorize special check payments in accordance with        Initiated, Not Completed
           authorization thresholds established by PBGC.

IOD-178    Develop and implement formal reconciliation procedures that         Initiated, Not Completed
           require the reconciling items between PRISM and PLUS
           records be resolved timely and their resolution be sufficiently
           documented.
IOD-179    Require formal managerial review and approval of                    Initiated, Not Completed
           reconciliations between PLUS and PRISM.
IOD-180    Implement the Deathmatch controls.                                        Completed

IOD-181    Establish a formal reconciliation process for the plans             Initiated, Not Completed
           assumed from the prior paying agents whereby reconciliations
           are reviewed and approved by an appropriate level of
           management.
IRMD-110   PBGC should include in its development of formal systems            Initiated, Not Completed
           development life cycle methodology policies and procedures
           that address adequate controls for the segregation of
           functions performed in the development and production
           environments.
IRMD-111   PBGC should include in its development of a formal systems          Initiated, Not Completed
           development life cycle methodology policies and procedures
           that implement and enforce adequate monitoring controls for
           significant activities performed by individuals and/or systems.
IOD-182    PBGC should implement policies and procedures that would                 Not Initiated
           control the assignment of excessive responsibilities, including
           the development of adequate monitoring of activities
           performed by individuals and/or systems




                                            11
                                                                             2000-8/23138-3
 OIG
Control   Status of Prior Year Findings and Recommendations As of                Status as of
Number                           September 30, 1999                          September 30, 1999


                                      Fiscal Year 1996

FOD-217   Controls surrounding PAS require improvement.                           Completed


FOD-259   PBGC did not always maintain a proper audit trail to support            Completed
IOD-141   the component line items presented in the Corporation’s           Initiated, Not Completed
          financial statements or the underlying controls related to
          financial reporting.


FOD-263   PBGC personnel did not always comply with PBGC policies           Initiated, Not Completed
FOD-264   and procedures.                                                         Completed


IOD-144   Develop procedures to implement PBGC’s policy to conduct an       Initiated, Not Completed
          expense assumption study on a predetermined schedule or
          when certain conditions (economic or political) exist to
          determine the reasonableness and validity of this assumption.


OED-9     Develop and document a formal methodology for calculating         Initiated, Non Completed
          the general unidentified single-employer probable contingency
          reserve based on an analysis of related industry trends and
          historical information.


                                    Fiscal Year 1995

IOD-137   Reconciliations of the number of benefit checks processed by      Initiated, Not Completed
          SSB and its contractor are not always performed or
          adequately supported.


IRMD-75   PBGC has not formally documented its policies and                 Initiated, Not Completed
IRMD-76   procedures related to computer program changes.                   Initiated, Not Completed


IRMD-81   Access to the mainframe security system is not adequately               Completed
          limited.


IRMD-84   The Corporation’s disaster recovery plan does not include               Completed
          local area networks.




                                             12
                                                                          2000-8/23138-3
 OIG
Control   Status of Prior Year Findings and Recommendations As of              Status as of
Number                        September 30, 1999                            September 30, 1999


                                  Fiscal Year 1994

IOD-127   General controls surrounding the Integrated Present Value of          Completed
IOD-129   Future Benefits (IPVFB) Local Area Network (LAN) are                  Completed
          inadequate.




                                         13
                                                                         2000-8/23138-3
